HHS/OIG-Audit-"Appropriateness of Costs charged to the Head Start Grant forCenter, Inc"-(A-01-96-02505)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Appropriateness of Costs Charged to the Head Start Grant for Center, Inc " (A-01-96-02505)
December 12, 1996
Complete
Text of Report is available in PDF format (31 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We reviewed the Head Start grant administered by the Mental Health and Retardation Center of Cambridge and Somerville,
Inc. (Center, Inc.), Cambridge, Massachusetts. The objective of our review was to determine the appropriateness and allowability
of costs charged to the Head Start grants for the period December 1, 1994 through June 30, 1996.
Based on the results of our review of financial information, attendance reports, Board of Directors meetings, Policy Council
meetings, and reports prepared by independent auditors, we identified no unallowable nor inappropriate costs. Accordingly,
we are not recommending any financial adjustments.